Audit Report

Office of Justice Programs, Bureau of Justice Assistance, Project Safe Neighborhoods Grants Awarded to the Non-Profit Resource Center of Alabama, Grant Number 2003-GP-CX-0575,
 Birmingham, Alabama

Audit Report GR-40-05-010     


August 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division has completed an audit of U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance grants awarded to the Non-Profit Resource Center of Alabama (NRCA) headquartered in Birmingham, Alabama.  The purpose of the grants was to prevent, control, and reduce gun violence throughout the Northern Judicial District of Alabama in conjunction with Project Safe Neighborhoods.

We tested the NRCAs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  As of March 8, 2005, the NRCA had received $330,423 of the $892,721 grant funds awarded.

We found the NRCA to be in material non-compliance with grant conditions in the areas of reporting, grant drawdowns, grant expenditures, and monitoring of subgrantees.  The NRCA also made several advance payments that are prohibited by OJP grant guidelines.  As a result of these deficiencies, we questioned $209,519, or 23.5 percent, of the total grant funds awarded.1   Specifically, we found the NRCA:

did not submit or did not submit in a timely manner, financial status reports and progress reports;

	did not time its drawdown requests to ensure that federal cash on hand was the minimum needed for disbursement immediately or within a few days;

	overestimated salary and fringe benefit costs in its grant applications; 

	claimed and was reimbursed for unallowable and unsupported costs; 

	made advance payments to subgrantees that are prohibited by OJP guidelines; and

	did not adequately monitor subgrantees to ensure they met fiscal and programmatic requirements.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

  



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.